Memorandum from the Office of the Inspector General



December 9, 2010

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2009-12699 – FOLLOW-UP REVIEW OF
TVA'S ROLE AS A RATE REGULATOR – USE OF ELECTRIC SYSTEM REVENUES
FOR NONELECTRIC PURPOSES



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and planned actions, have been included in
the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Richard C. Underwood, Project Manager, at
(423) 785-4824 or Jill M. Matthews, Deputy Assistant Inspector General, Audits and
Support, at (865) 633-7430. We appreciate the courtesy and cooperation received from
your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Michael B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Robert A. Morris, WT 7C-K
      Emily J. Reynolds, OCP 1L-NST
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3A-C
      John G. Trawick, WT 3D-K
      Robert B. Wells, WT 9B-K
      OIG File No. 2009-12699
        
 


                                 Audit Report
 
Office
      of the Inspector General                            

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                          

 

 

 
FOLLOW-UP REVIEW
 


OF TVA’S ROLE AS A
 

 

RATE REGULATOR –
 


USE OF ELECTRIC
SYSTEM REVENUES
FOR NONELECTRIC
 

PURPOSES
 

 
 
 

                                                          
Audit Team                                Audit 2009-12699
Richard C. Underwood                      December 9, 2010
Stephanie L. Simmons
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   EXECUTION OF CONTRACT MODIFICATIONS FOR
   DISTRIBUTORS ALLOWED TO USE ELECTRIC SYSTEM
   REVENUES FOR NONELECTRIC PURPOSES ..............................................2

   EVALUATING REQUESTS FOR THE INVESTMENT OR
   USE OF ELECTRIC SYSTEM REVENUES FOR
   NONELECTRIC PURPOSES ........................................................................... 3

   GUIDELINES FOR REVIEW OF DISTRIBUTOR FINANCIAL
   POSITION AND DETERMINATION OF EXCESS CASH .................................5

   REVIEW OF ALL DISTRIBUTORS USING ELECTRIC
   SYSTEM REVENUES FOR NONELECTRIC PURPOSES .............................. 7

RECOMMENDATIONS .................................................................................. 7


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. MEMORANDUM DATED NOVEMBER 16, 2010, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN




Audit 2009-12699
          Audit 2009-12699 – Follow-Up Review of TVA’s Role as a
           Rate Regulator – Use of Electric System Revenues for
                           Nonelectric Purposes
                                  EXECUTIVE SUMMARY
Background

  The Tennessee Valley Authority (TVA) sells power to 155 distributors in the seven-state
  TVA area. TVA’s regulatory authority is exercised through the terms and conditions
  included in TVA’s individual Wholesale power contracts with the distributors. Over the
  years, the TVA Boards of Directors, using their discretionary authority, incorporated
  provisions in the power contracts consistent with the statutory requirements and
  objectives of the TVA Act, such as how revenues from electric system operations can be
  spent.

  On June 13, 2006, the Office of the Inspector General (OIG) issued Inspection 2005-522I,
  Review of TVA’s Role as a Rate Regulator. In this review, we discussed, among other
  things, that:

     Some TVA distributors were using electric system revenues to fund new business
      ventures, such as telephone, cable TV, and Internet services, without proper contract
      modifications in place and, in some cases, without TVA approval.
     TVA did not have formalized procedures in place to ensure consistent review of
      (1) distributor financial information, including when a distributor’s revenue was more
      than sufficient for the operation and maintenance of the electric system, so that TVA
      could work with the distributor to lower resale rates or reduce proposed rate
      increases by the distributor and (2) business plans that propose use of electric
      system revenues for nonelectric purposes.

  We recommended (and TVA management agreed) to ensure contract modifications
  were executed for any distributors approved to use electric system revenues for
  nonelectric purposes. In addition, TVA management asserted they would formalize
  procedures to ensure consistent review of (1) distributor financial information and
  (2) business plans that propose the use of electric system revenues for nonelectric
  purposes.

  The objective of this review was to determine if contract modifications had been
  executed and other recommendations from Inspection 2005-522I had been implemented
  in relation to TVA approvals for distributors to use electric system revenues for
  nonelectric purposes. The scope of our review was for the period July 2006 through
  June 2009.

What the OIG Found

  In OIG’s Inspection 2005-522I, we recommended TVA execute contract modifications
  with distributors who wish to pursue nonelectric business ventures, and TVA

                                                                                       Page i
Office of the Inspector General                                                                          Audit Report


         management agreed to do so. However, TVA management later decided on an
         alternative approach to protect its interests and the interests of all parties. Instead of
         formal contract modifications, TVA’s approach now is to require written agreementsi with
         terms to protect the distributors, ratepayers, and TVA when approving the distributor to
         invest “reserves for renewals, replacements, contingencies, and working capital” in
         nonelectric business ventures. TVA management believes this approach and the
         resulting agreements provide greater protections for the involved parties.

         TVA has designated the request evaluation and subsequent agreements for one
         distributor in 2008 as the “model” for handling future requests. While the new approach
         and “model” may prove effective for controlling risks, we noted areas where protection
         for the distributors, ratepayers, and TVA could be strengthened. Specifically, we found
         TVA has:

             Not documented guidelines for (1) reviewing business plans when a distributor
              proposes to invest in nonelectric ventures or use electric system revenues for
              nonelectric purposes and (2) the terms to be included in the resulting formal written
              agreements.
             Not established guidelines to indicate when a distributor’s cash reserves becomes
              excess revenues that should be returned to the ratepayer through rate reductions, as
              required by the power contract. TVA has made some progress in formalizing
              procedures and metrics for review of a distributor’s financial position; however, the
              procedures and metrics have not been approved and implemented. According to
              TVA management, there have been 11 rate reductions and 10 absorptions of
              wholesale rate increases or fuel cost adjustments by 13 distributors during the period
              October 1, 2006, through July 8, 2010.
             Not reviewed distributors previously approved to use electric system revenues for
              nonelectric purposes or those using funds without approval to determine if
              appropriate protections (e.g., formal written agreements) are in place.

     What the OIG Recommends

         We recommend the Group President, Strategy and External Relations, (1) formally
         document procedures and guidelines for evaluating distributor requests to invest in
         nonelectric ventures or use electric system revenues for nonelectric purposes, including
         acceptable limits for certain elements, (2) determine when distributor reserves become
         excessive and should be returned to the ratepayers in the form of rate reductions, and
         (3) ensure all distributors using electric system revenues for nonelectric purposes have
         appropriate protections in place.




i
    TVA’s 2008 evaluation of the business plan and distributor’s financial position and resulting formal written
    agreements for one distributor was identified as the “model” for future requests. The written agreements in TVA’s
    “model” were in the form of an interdivisional loan agreement and joint use of funds agreement. The
    interdivisional loan agreement was signed by TVA, the distributor, and a representative for the other
    division/department. The joint use agreement was signed by TVA and the distributor.
Audit 2009-12699                                                                                              Page ii
Office of the Inspector General                                                       Audit Report


    Management’s Comments

         TVA management generally agreed with and is taking actions to address our
         recommendations. See Appendix B for TVA’s complete response.

    Auditor’s Response

         The OIG concurs with the planned actions to correct the identified issues.




Audit 2009-12699                                                                           Page ii
Office of the Inspector General                                                                  Audit Report


BACKGROUND
The Tennessee Valley Authority (TVA) sells power to 155 distributors in the
seven-state TVA area. TVA’s regulatory authority is exercised through the terms
and conditions included in TVA’s individual Wholesale power contracts with these
155 distributors. The basis for the terms and conditions included in the contracts
can be found in the TVA Act. One primary objective of the TVA Act shown in
Section 15d.(f) states, “power shall be sold at rates as low as are feasible.” Over
the years, the TVA Boards of Directors, using their discretionary authority,
incorporated provisions in the power contracts consistent with the statutory
requirements and objectives of the TVA Act, such as (1) resale rates and
ensuring consumers are charged the same as others in their class, (2) operating
the system on a self-supporting and financially sound basis, (3) how revenues for
electric system operations can be spent,1 and (4) required accounting practices.

In Office of the Inspector General’s (OIG) Inspection 2005-522I, Review of TVA’s
Role as a Rate Regulator, issued June 13, 2006, we discussed, among other
things, that:

    Some TVA distributors were using electric system revenues to fund new
     business ventures, such as telephone, cable TV, and Internet services,
     without proper contract modifications in place and, in some cases, without
     TVA approval.

    TVA did not have formalized procedures in place to ensure consistent review
     of (1) distributor financial information, including when a distributor’s revenue
     was more than sufficient for the operation and maintenance of the electric
     system, so that TVA could work with the distributor to lower resale rates or
     reduce proposed rate increases by the distributor and (2) business plans that
     propose use of electric system revenues for nonelectric purposes.

We recommended (and TVA management agreed) to ensure contract
modifications were executed for any distributors approved to use electric system
revenues for nonelectric purposes. In addition, TVA management asserted they
would formalize procedures to ensure consistent review of (1) distributor financial
information and (2) business plans that propose the use of electric system
revenues for nonelectric purposes. The planned completion date for these
actions was originally December 31, 2006; however, TVA is still working to
complete these actions.

1
    Section 5(c) of the power contract with distributors of TVA power states, “If the rates and charges in
    effect at any time provide revenues that are more than sufficient for such purposes, as more particularly
    described in Section 6 hereof, the parties shall agree upon a reduction in said rates and charges, and
    Municipality shall promptly put such reduced rates and charges into effect.”
    The uses allowed for excess revenues under Section 6 of the power contract include (1) current electric
    system operating expenses and payments of principal and interest on system indebtedness, (2) funding
    reasonable reserves for renewals, replacements, contingencies, and working capital to cover operating
    expenses for a reasonable number of weeks, (3) tax equivalent payments to general funds, (4) new
    electric system construction, and (5) retirement of system indebtedness prior to maturity.
Audit 2009-12699                                                                                       Page 1
Office of the Inspector General                                                                Audit Report


FINDINGS
In OIG’s Inspection 2005-522I, we recommended TVA execute contract
modifications with distributors who wish to pursue nonelectric business ventures,
and TVA management agreed to do so. However, TVA management later
decided on an alternative approach to protecting its interests and the interests of
all parties. Instead of formal contract modifications, TVA’s approach now is to
require written agreements, such as a joint use agreement and an interdivisional
loan agreement, with terms to protect the distributors, ratepayers, and TVA when
a distributor is approved to invest reserves2 in nonelectric business ventures.
TVA management believes this approach and the resulting agreements provide
greater protections for the involved parties.

While reviewing this new approach, we noted areas where TVA could improve
the review process for requests. Specifically, we found TVA has not documented
(1) detailed procedures and guidelines to be used when evaluating business
plans when a distributor proposes to invest in nonelectric ventures or use electric
system revenues for nonelectric purposes or (2) the terms to be included in the
resulting formal written agreements. In addition, we noted TVA has made
progress in formalizing procedures for review of a distributor’s financial position;
however, TVA still needs to develop additional guidance to determine when a
distributor’s cash reserves are excessive. Finally, we found TVA could take
steps to review all distributors using electric system revenues for nonelectric
purposes to ensure formal written agreements are established with the
appropriate protections for the distributors, ratepayers, and TVA. These items
are discussed in detail below.

EXECUTION OF CONTRACT MODIFICATIONS FOR
DISTRIBUTORS ALLOWED TO USE ELECTRIC SYSTEM
REVENUES FOR NONELECTRIC PURPOSES
Subsequent to the prior Inspection report, TVA management decided not to
execute contract modifications with distributors who wish to pursue nonelectric
business ventures. Instead, TVA elected to use an approach in which TVA
approves distributors’ investment of their reserve funds in these business
ventures and establishes formal written agreements with terms to protect the
distributors, ratepayers, and TVA.

TVA received six distributor requests to use electric system revenues for
nonelectric purposes during our audit period. TVA’s 2008 evaluation of the
business plan and distributor’s financial position and resulting formal written
agreements for one distributor was identified as the “model” for future requests.
In this model case, two supplements to the power contract in the form of an

2
    Section 6 of the power contract describes the approved uses of electric system revenues that include
    reasonable reserves for renewals, replacements, contingencies, and working capital to cover operating
    expenses for a reasonable number of weeks.
Audit 2009-12699                                                                                    Page 2
Office of the Inspector General                                                              Audit Report


interdivisional loan agreement and a joint use of funds agreement were
executed.3 In the interdivisional loan agreement, we noted TVA included several
items that could help protect the interests of the distributors, ratepayers, and
TVA, such as:

    Specific terms for recourse by the electric system if the line of business
     invested in did not succeed as projected.
    A cap on the potential loan amount.
    Guidelines for setting the interest amount at which the loan was to be repaid
     as well as dates on which payments were to be made to the electric system.

TVA management stated the new approach and the resulting formal written
agreements provide greater protections to the involved parties than the previous
practice of modifying the contracts. TVA personnel stated the intent for investing
distributor reserves is to benefit the electric system, and the new approach
makes these investments safer for the ratepayers because TVA’s contracts are
more restrictive and require a higher interest rate than Tennessee state law. In
addition, the loan made in the model approach is callable when necessary and is
part of the interdivisional loan agreement signed by TVA, the distributor, and the
municipality’s Chief Executive. TVA believes this type of agreement to be
stronger and more enforceable. We found this approach was allowable under
the terms of the power contract and does provide protections for the involved
parties. If implemented properly, it could be as effective as or more effective
than the previous practice of modifying the contracts in protecting the interests of
the various parties.

EVALUATING REQUESTS FOR THE INVESTMENT OR USE OF
ELECTRIC SYSTEM REVENUES FOR NONELECTRIC
PURPOSES
As discussed previously, TVA management used the review of one distributor’s
request in 2008 as the “model” for the evaluation of future requests. However,
we noted TVA has yet to document (1) detailed procedures and guidelines to be
used when evaluating distributor requests (e.g., business plans that propose the
investment or use of electric system revenues for nonelectric purposes and
financial position) and (2) terms to be included in the resulting formal written
agreements once the request is approved. Furthermore, we identified
opportunities to strengthen the business plan review and documentation of the
review as described on the following page.




3
    However, the agreements required to protect the electric department, ratepayers, and TVA may vary
    based on the situation.
Audit 2009-12699                                                                                  Page 3
Office of the Inspector General                                                Audit Report


In reviewing the model business plan evaluation, we noted TVA considered
several important criteria when performing their review of distributor business
plans, including:

   Whether the proposed investment had received approval by the City Council
    or other public hearing authority.  
   Whether a review had been performed by the State Comptroller.  
   The proposed uses of electric system revenues.  
   Whether the proposed interest rate on proposed loans met minimum
    requirements under state law.  
   The distributor’s current credit rating.  
   Results of a TVA performed investment analysis that included:  
    -    Net present value of the proposed investment 
    -    Payback in years 
    -    Benefit/cost ratio 
    -    Expected internal rate of return on the investment 
   Comparison of results of a TVA-performed review of financial ratios to all
    distributors and similar distributors.  
   Proposed method for allocating joint costs.  
   Comparison of the distributor’s current rate ranking to the distributor’s rate
    ranking under the worst case scenario where no benefits are derived from the
    investment. 

However, we found this process could be improved in key areas. Specifically,
TVA’s analyses appeared to be performed based on the assumption that
information provided by the distributor was accurate and did not evaluate the
accuracy of the distributor’s business plan projections or the likelihood distributor
targets will be met. In addition, while TVA’s review of business plans considers
the following items, it does not appear TVA has developed guidelines that
document what is acceptable in terms of the:

   Level of risk for distributor investments or how to evaluate this risk. 
   Payback term for loaned amounts.
   Rate of return for the electric system.
   Level of impact on rates. 

Also, we did not find documentation that the evaluation included consideration of:

   The ability of the business venture to obtain other financing in case the
    electric division must call the loan. If the business does not have the ability to
    obtain additional financing when the electric system needs its reserve funds,
    there is no protection for the ratepayers provided by the callable portion of the
    loan agreements.
Audit 2009-12699                                                                    Page 4
Office of the Inspector General                                                                  Audit Report


    Previous amounts the electric division was allowed to loan to other distributor
     business ventures or if those business ventures had achieved the goals
     established by the distributor in its previous request.

Finally, we noted documentation of the reasons TVA management approved the
“model” request was not complete in one area. Specifically, TVA’s evaluation of
the distributor’s business plan indicated even with the most desirable outcome
there would be a need for an additional rate increase of 1.8 percent. Our review
of documentation provided by TVA did not note the specific reason or reasons
that led TVA to approve a proposed business plan that would increase rates
under the best of outcomes. However, it was documented in the evaluation of
the business plan proposal the plan was predicated on the distributor’s assertion
that it would be making the significant investment in the fiber backbone for the
purposes of an Automatic Metering Infrastructure4 network, and the incremental
investment to support the competitive broadband business was an opportunity to
realize additional revenues and reduce the overall costs to the electric system.

GUIDELINES FOR REVIEW OF DISTRIBUTOR FINANCIAL
POSITION AND DETERMINATION OF EXCESS CASH

In Inspection 2005-522I, we noted there had been no guidelines established for
the ratios used in the financial analysis of distributors performed by TVA to
indicate when a distributor’s rates and charges produce revenues more than
sufficient for the operation and maintenance of the electric system on a self-
supporting and financially sound basis. Additionally, we recommended in
individual distributor audits issued in 2009 and 2010, TVA develop criteria to be
used in determining whether a distributor’s cash reserves are excessive and
incorporate the criteria into the rate setting process.

TVA management has been developing procedures for the Board’s approval
regarding new metrics for use in analyzing a distributor’s financial position in
relation to the resale rates charged to customers. Management is expecting to
receive the Board’s approval on these new metrics in 2010. However, TVA has
not developed guidance to determine when a distributor’s level of reserves
becomes excessive and should be returned to the ratepayer in the form of rate
reductions and a procedure on how to accomplish the prompt return to the
ratepayers. This guidance is necessary to consistently carry out the provision in
Section 5(c), Resale Rates, of the power contract that states:

       If the rates and charges in effect at any time provide revenues that
       are more than sufficient for such purposes, as more particularly

4
    Automatic Metering Infrastructure (AMI) systems measure, collect, and analyze energy usage from
    advanced devices, such as electricity meters, gas meters, and/or water meters, through various
    communication media on request or on a predefined schedule. With this technology, utilities can
    remotely read your meter, obtain detailed information regarding your energy use, and monitor power
    quality. AMI also enables utilities to incorporate advanced metering applications, such as time-of-use
    rates.
Audit 2009-12699                                                                                      Page 5
Office of the Inspector General                                                 Audit Report


      described in Section 6 hereof, the parties shall agree upon a
      reduction in said rates and charges, and Municipality shall promptly
      put such reduced rates and charges into effect.

According to TVA management, there have been 11 rate reductions and
10 instances when a distributor has chosen to absorb all or part of a Wholesale
rate increase or fuel cost adjustment by 13 distributors during the period
October 1, 2006, through July 8, 2010 (see Table below). TVA management
indicated that all but one of the rate reductions were initiated by the distributor.

                    Distributor Rate Reductions or Absorptions of
                 Wholesale Rate Increases or Fuel Cost Adjustments
                 for the Period October 1, 2006, Through July 8, 2010
                                                                   Absorbed Wholesale
                                              Rate Reduction      Increases or Fuel Cost
        Distributor                Date                                Adjustments
                                             Amount     Percent    Amount       Percent
 Jellico Electric and             01/01/07                            $9,498       0.13%
 Water System                     10/01/07                           $79,190       1.10%
                                  01/01/08                          $140,522       1.90%
                                  04/01/08                          $175,600       2.80%
 Hickman-Fulton Rural             10/01/05                           $50,000       0.66%
 Electric Cooperative             01/01/10    $73,465     0.81%
 Corporation
 McMinnville Electric             10/01/06    $20,357     0.13%
 System                           01/01/08     $9,026     0.05%
                                  01/01/10    $28,201     0.16%
 East Mississippi Electric        08/01/07                            $7,088       0.03%
 Power Association                11/01/07                           $76,633       0.35%
                                  01/01/08                           $57,752       0.26%
 Newport Utilities                10/01/05                           $41,237       0.12%
 Russellville Electric            04/01/06                          $250,000       3.00%
 Plant Board
 Mountain Electric                04/01/06      $433      0.00%
 Cooperative
 Powell Valley Electric           10/01/06     $4,728     0.01%
 Cooperative
 Tri-County Electric
 Membership                       10/01/06      $194      0.00%
 Cooperative
 Duck River Electric
 Membership                       04/01/07   $179,000     0.15%
 Cooperative
 Lexington Electric               02/01/08   $217,315     0.58%
 System
 Harriman Utility Board           11/01/08   $609,800     2.70%
 Somerville Utility Board         04/01/10    $42,197     1.00%



Audit 2009-12699                                                                     Page 6
Office of the Inspector General                                              Audit Report


REVIEW OF ALL DISTRIBUTORS USING ELECTRIC SYSTEM
REVENUES FOR NONELECTRIC PURPOSES

While performing audits of distributors and in our original inspection, we noted
distributors who either are using electric system revenues for nonelectric
purposes without approval from TVA or were approved previously without putting
proper agreements in place. For example, in a previous distributor audit, we
noted the distributor was approved to invest in a nonelectric business but there
were no loan documents generated, and the interest rate to be paid to the
electric system had not been determined. In another audit, we found the electric
system was paying all of the expenses for the other line of business and keeping
a running total of the amounts due to the electric system. No documents
providing recourse by the electric system against these other lines of business in
the event of nonpayment were available. As a result, the electric system and
ratepayers were not adequately protected if the nonelectric business did not
succeed or the electric system needed to retrieve its funds.

As noted earlier, TVA has stated future approvals will include proper agreements
with all parties to ensure the electric system revenues are protected. However,
we did not see evidence TVA planned to look at those previously approved or
those using funds without approval to ensure proper agreements are in place
with protections for the involved parties.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations:

1. Formally document procedures and guidelines for evaluating distributor
   requests to invest in nonelectric ventures or use electric system revenues for
   nonelectric purposes , including acceptable limits for certain elements,
   Include steps on how to determine acceptable limits/levels for certain
   elements, such as:

        Maximum allowable cash reserves for renewals, replacements,
         contingencies, and working capital.
        Identification of acceptable levels of risk in consideration of business plans
         for nonelectric investments or how to evaluate the risk.
        Identification of acceptable levels of rate increases required as a result of
         the investment.
        Specific time frames that are acceptable for payback of electric system
         investments.
        Specific acceptable levels of rate of return on electric system investments
         in nonelectric lines of business.


Audit 2009-12699                                                                  Page 7
Office of the Inspector General                                             Audit Report


        Consideration of previous uses of electric system revenues for nonelectric
         purposes by the distributor and whether or not those projects obtained
         their stated goals.

    TVA Management’s Comments – TVA management stated that after review
    and consideration of the recommendations contained in the OIG’s
    memorandum dated August 24, 2010, it concluded that ratepayers could
    indeed be further protected if increased review of the business plans for any
    operation proposed by a distributor for an interdivision loan was implemented
    as a part of TVA approving any interdivision loans in the future. TVA will look
    at all of the OIG criteria and use them as appropriate to determine if any
    particular interdivision loan may put the electric ratepayers at risk inconsistent
    with the use-of-revenue provisions of the power contract notwithstanding the
    other protections of the interdivision loan agreements. In addition, more
    careful review of the business plans should assist TVA in reviewing the
    adequacy of the in-lieu of tax payments as collateral for the loan interest and
    principal. See Appendix B for TVA’s complete response. After submitting its
    official response, TVA later informed us it plans to have baseline criteria/steps
    for evaluating distributor business plans developed by February 28, 2011.

    Auditor's Response – The OIG concurs with the planned actions.

2. When seeking the Board’s approval for new metrics to use in evaluating a
   distributor’s financial position, also include when a distributor’s level of
   “reasonable reserves for renewals, replacements, contingencies, and working
   capital” becomes excessive and should be returned to the ratepayer in the
   form of rate reductions. Also, TVA should document a procedure on how to
   accomplish the prompt return to the ratepayers.

    TVA Management’s Comments – TVA management will present additional
    metrics to the TVA Board in the coming year for review and approval. TVA
    evaluates the distributor’s level of reasonable reserves when the distributors
    request rate actions. An annual evaluation of all distributor financials looking
    at key ratios and trends will be proposed to the Board. Based on this review,
    TVA will contact distributors who may need to reduce rates or, conversely due
    to poor ratios, may need to increase rates. The target date for completing
    discussions with distributors and submitting revised policies for Board
    approval is November 2011. See Appendix B for TVA’s complete response.

    Auditor's Response – The OIG concurs with management's plan to develop
    guidelines for determining when a distributor's level of reserves becomes
    excessive and submitting them to the Board for approval.

3. Review and ensure all distributors using electric system revenues for
   nonelectric purposes have formal written agreements (e.g., joint use of cash,
   interdivisional loan, etc.) in place to properly protect the electric department in


Audit 2009-12699                                                                 Page 8
Office of the Inspector General                                             Audit Report


    the event the nonelectric business venture does not succeed or provide
    payback to the electric system in a reasonable period of time.

    TVA Management’s Comments – TVA management stated agreements are
    in place in those situations where TVA has consented to the use of electric
    system revenues for nonelectric purposes. As described more fully in the first
    response listed above, TVA has no plans to enter into agreements where
    distributors have used electric system revenues for nonelectric purposes
    without TVA’s consent. In such cases, TVA will work with the distributor as
    appropriate to bring the distributor into compliance with the power contract.
    TVA distributor staff will look for electric system use of revenue for nonelectric
    purposes when they perform their annual review of distributor financial
    information. As part of this review, any unapproved use of electric system
    revenues for nonelectric purposes will be evaluated for further action. Target
    completion date for this is September 2011. See Appendix B for TVA’s
    complete response.

    Auditor's Response – The OIG concurs with the planned actions.




Audit 2009-12699                                                                 Page 9
                                                                       APPENDIX A
                                                                        Page 1 of 1

OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of our review was to determine if contract modifications had been
executed and other recommendations from Inspection 2005-522I had been
implemented in relation to TVA approvals for distributors to use electric system
revenues for nonelectric purposes. The scope of our review was for the period
July 2006 through June 2009. Fieldwork was conducted between July 2009 and
May 2010.

To achieve our objective, we:

   Obtained listings of all distributors with nonelectric services or business
    operations added after July 1, 2006.
   Determined if the new services identified were funded by electric system
    revenues or by other funding sources.
   Requested contract modifications documenting TVA approval of nonelectric
    services being supported by electric system revenues.
   Determined if TVA provided approval of the use of electric system revenues
    through some other medium (e.g., memorandum, letter, etc.) for any services
    supported by electric system revenues where a contract modification was not
    present.
   Reviewed the distributor business plan evaluation and approval process used
    by TVA management identified as the “model” for all future requests for
    investment of electric system reserves in a nonelectric line of business.
   Requested documented procedures and guidelines for review of distributor
    financial position and proposed distributor business plans.

This performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
